U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
20-1013

Re: Simon v. Director, Office of Worker’s Compensation Programs, et al., No.

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2021. The government’s response is now due, after two extensions, on April 28, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 19, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1013
SIMON, CLARENCE J.
DIRECTOR, OFFICE OF WORKERS'
COMPENSATION PROGRAMS, DEPARTMENT OF
LABOR, ET AL.

LOUIS R. KOERNER, JR.
KOERNER LAW FIRM
1204 JACKSON AVE.
NEW ORLEANS, LA 70130
504-405-1411
KOERNER@KOERNER-LAW.COM
HENRY H. LEBAS
LEBAS LAW OFFICES APLC
2 FLAGG PLACE, SUITE 1
LAFAYETTE, LA 70508
337-236-5500
HLEBAS@LEBASLAW.COM

